IN THE
SUPREME COURT OF THE UNITED STATES

No.

CLAY BRIGHT, in his official capacity as Commissioner of the Tennessee Department of
Transportation,

Applicant,
v.

WILLIAM HAROLD THOMAS, JR.,

Respondent.

CERTIFICATE OF SERVICE

I, Sarah K. Campbell, counsel for applicant and a member of the Bar of this Court, certify
that on January 16, 2020, one copy of the Application for an Extension of Time Within Which to
File a Petition for a Writ of Certiorari in the above-captioned case was sent, by first class United
States mail, postage prepaid, and by electronic mail to the following counsel:
Allen Dickerson
Institute for Free Speech
124 S. West Street, Suite 201
Alexandria, Virginia 22314
adickerson@ifs.org

Owen Yeates
Institute for Free Speech
124 S. West Street, Suite 201
Alexandria, Virginia 22314
oyeates@ifs.org

I further certify that all parties required to be served have been served.

SA~1J.~E[;~

Associate Solicitor General

